           Amtrak
Office of Inspector General
                  Evaluation Report E-09-06

                   Training and
               Employee Development
                         October 26, 2009




This report will be available to the public on November 25, 2009.
                          EXECUTIVE SUMMARY


INTRODUCTION
       In May 2009, the Amtrak Office of Inspector General (OIG) issued Evaluation
Report E-09-03, “Human Capital Management”. That report was the result of a year
and a half effort evaluating Amtrak’s human capital management practices. During
the course of that evaluation, we decided to conduct a separate and more detailed
review focusing specifically on training and employee development. This report is the
result of that separate review. It should be considered a complementary report to
Report E-09-03 on the broader subject of human capital management at Amtrak.


OVERALL CONCLUSIONS
         Training at Amtrak is managed and conducted in a largely decentralized
manner. In 2008, records show that Amtrak’s 19,000 employees received over
670,000 hours of training, an average of about 35 hours of training per employee. It
is difficult to determine exactly how much was spent on training, but we estimate that
Amtrak probably spends between $40 million and $45 million on training each year.

       During our review, we found many passionate and hard-working people
involved with training. This has resulted in some excellent training being conducted.
However, since training is decentralized and mainly driven by the individual
department's requirements, it is not always consistently required or delivered
throughout the corporation. In addition, the decentralization of training at Amtrak
appears to make training more expensive than at other similarly sized companies.

       Part of the reason for the inconsistency between departments is that there is
no individual or organization charged with overseeing all training at Amtrak.
Furthermore, there is currently no corporate-wide training strategy or program to
ensure that the efforts are aligned to meet the strategic needs of Amtrak in the
future. For the railroad to work effectively, all employees must be properly trained to
do their jobs, not just those in some positions at some locations or in some
departments.

       In addition to the lack of a corporate-wide training program, there is also no
integrated corporate-wide career development program for management employees.
Over the last ten years, only once out of eight times has an internal candidate been
selected for an opening in one of the top three leadership positions in the company
(CEO, COO or CFO) and only two of the current ten members of the Executive
Management Committee came from jobs from within Amtrak. Without a corporate-
wide management career development program, Amtrak will continue to be faced
with senior managers who apparently do not have the appropriate attributes,
education, experiences or management skills needed to assume the senior-most
leadership roles in the company.

       As recently stated by Amtrak’s President and CEO in a Special Employee
Advisory to all employees, “It’s incumbent on all of us to shape a company that thinks
beyond tomorrow and that sets the stage for the newer members of the Amtrak
family because they represent our future.” An increased emphasis on training and
employee development throughout Amtrak is just the type of effort needed to ensure
that Amtrak is postured for success, now and in the future.

      The rest of this report discusses our specific findings in more detail and makes
27 recommendations to improve the effectiveness and efficiency of training and
employee development at Amtrak.




                                                                                     iii
TABLE OF CONTENTS
Introduction                                                          1

Methodology                                                           1

Training at Amtrak                                                    1

Overall Conclusions                                                   2

Findings and Recommendations

     1. Employee Training
        1A. New Hire Orientation                                      4
        1B. New Hire Training (Job-Specific)                          8
        1C. Subsequent Training                                      10
        1D. Training Strategy                                        12
        1E. Training Efficiency                                      13
        1F. Training Records                                         16
        1G. Instructor Certifications                                18
        1H. Computer Based Training Validation                       20
        1I. Terminology                                              22

     2. Management Employee Career Development
        2A. Management Employee Career Development Strategy          24
        2B. Management Candidate Aptitude Screening                  28
        2C. Management Associate/Trainee Program                     30
        2D. Career Progression & Job Families                        32
        2E. Educational Standards for Non-Agreement Employees        34
        2F. Cross-Departmental & Corporate Competencies              37
        2G. Leadership/Management Development                        40

List of Appendices
         I Evaluation Team
         II Consolidated List of Recommendations
         III New Hire Checklist
         IV Matrix of New Hire Initial Craft Training Comparison Sample



                                                                          iv
INTRODUCTION
       In May 2009, the Amtrak Office of Inspector General (OIG) issued Evaluation
Report E-09-03, “Human Capital Management.” That report was the result of a year
and a half effort evaluating Amtrak’s human capital management practices. During
the course of that evaluation, we decided to conduct a separate and more detailed
review focusing specifically on training and employee development. This report is the
result of that separate review. It should be considered a complementary report to
Report E-09-03 on the broader subject of human capital management at Amtrak.


METHODOLOGY
       This review began as part of the broader Human Capital Management
evaluation and therefore used many of the same sources and techniques to collect
information and data for this evaluation. This included interviews with the then
Chairman of the Amtrak Board of Directors, the then Amtrak President and over 125
Amtrak employees, including the senior management in every Amtrak department,
most of the managers in the Human Resources and Diversity Initiatives (HR&DI)
Department, and a sampling of managers and employees throughout the country.
We also reviewed the results from benchmarking studies conducted by
PricewaterhouseCoopers (PwC) and SAP, as well as the results from a survey of
Amtrak employees conducted by Accenture. Finally, we visited two other Class I U.S.
railroads to see how they managed their employee training and development.


TRAINING AT AMTRAK

      Training at Amtrak is managed and conducted in a largely decentralized
manner. There are approximately 140 Amtrak employees involved in the instruction
or management of training, with about half of those located in the Employee
Development (ED) Branch within the HR&DI Department. Training is conducted at
dozens of locations throughout the country, aligned with the major employee
concentrations.

       Some departments at Amtrak centrally manage and schedule most of their
employee training. For example, the Transportation Department schedules most of
their employees to receive a structured “block” of training at a specified time during
the year so as to manage and minimize the impact of training on the operation of the
railroad. The Engineering Department also conducts a form of centrally-managed
structured training in their “engineering camps”. Most of the Transportation
Department’s training for new hire conductors and locomotive engineers is conducted
centrally at the Training Center in Wilmington. They are the only department that


                                                                                     1
routinely brings a significant portion of their employees to a central training facility
rather than providing the training at a location near the employees.

       In 2008, records show that Amtrak’s 19,000 employees attended over 9,300
training events 1 (or courses) and received over 670,000 hours of training, an average
of about 35 hours of training per employee. Additionally, Amtrak conducted Safety &
Security training for 10,000 contractors (approximately 500 classes). The vast
majority of the training participants attended training to satisfy regulatory
requirements. However, the employees who received the most training were,
understandably, the new employees. Amtrak provided over half of the total training
hours on new hire training. Only about one-tenth of the total training hours were
devoted to new or enhanced skill development.

        It is difficult to determine exactly how much was spent on training in 2008,
since not all training costs are consistently coded to training (for example, travel to
training is not always charged to training). However, we identified approximately $12
million spent on instructor salaries and other expenses related to the management
and conduct of training throughout Amtrak in 2008. In addition, we estimate that
Amtrak spent over $26 million in salary and wages 2 for employees to attend training.
In total, we estimate that Amtrak probably spends between $40 million and $45
million on training each year.


OVERALL CONCLUSIONS
         Skilled employees are critical to any railroad. Without skilled engineers and
conductors, the trains will not run on time. Without skilled electricians and
mechanics, the equipment will not run reliably. Without skilled trackmen and
signalmen, the infrastructure will not support safe and on-time performance. Without
a myriad of skilled support personnel, the system will not run effectively and
efficiently. Ensuring that employees have the appropriate knowledge, skills and
abilities (KSAs) to properly and safely perform their jobs is every manager’s
responsibility. An effective training program is the tool needed to insure that
employees develop and maintain these KSAs.

       At Amtrak, we found many passionate and hard-working people involved with
training. This has resulted in some excellent training being conducted. However,
since training is decentralized and mainly driven by the individual department's
requirements, it is not always consistently required or delivered throughout the


1
  This represents both classroom and on-line training events. It should be noted that certain training programs,
such as New Hire Programs, Training Camps and/or Block Training, are treated as multiple individual training
events in the records.
2
  Represents fully loaded salary and wages (including benefits).


                                                                                                                   2
corporation. In addition, the decentralization of training at Amtrak appears to make
training more expensive than at other similarly sized companies.

        As we learned, there is no individual or organization charged with overseeing
all training at Amtrak. Rather than filling this role at Amtrak, the role of the Employee
Development Branch in the HR&DI Department has evolved into one of developing
and providing training largely in support of the requirements dictated by the operating
departments. There is currently no corporate-wide training strategy or program to
ensure that the efforts are consistent or aligned to meet the strategic needs of Amtrak
in the future. For the railroad to work effectively, all employees must be properly
trained to do their jobs, not just those in some positions at some locations or in some
departments. The lack of corporate direction and oversight of all training efforts at
Amtrak is a detriment to overall consistent accomplishment.

       In addition to the lack of a corporate-wide training program, there is also no
integrated corporate-wide career development program or selection criteria for
management employees 3 . Over the last ten years, only once out of eight times has
an internal candidate been selected for an opening in one of the top three leadership
positions in the company (CEO, COO or CFO) 4 and only two of the current ten
members of the Executive Management Committee came from jobs from within the
company. Without a corporate-wide management career development program,
Amtrak will continue to be faced with senior managers who apparently do not have
the appropriate attributes, education, experiences or management skills needed to
assume the senior-most leadership roles in the company.

       The rest of this report discusses our specific findings in more detail and makes
27 recommendations to improve the effectiveness and efficiency of training and
employee development at Amtrak. Our recommendations are mainly directed to the
Vice President (VP) for HR&DI, as the most logical corporate lead, however, without
the direction and full support of Amtrak’s CEO and the rest of Amtrak’s executive
leadership, the VP for HR&DI will be unable to fully implement the recommendations.
Although this will not be an insignificant task, a renewed emphasis across the
company on employee training and development can pay great dividends in many
areas, not only in the near term, but also in the future.




3
  We have focused our comments on career development of non-agreement (management) covered employees in
this report. We plan to look at career development of agreement covered employees as part of a future evaluation.
4
    Chief Executive Officer (CEO), Chief Operating Officer (COO), and Chief Financial Officer (CFO).


                                                                                                               3
FINDINGS AND RECOMMENDATIONS

1. Employee Training
1A. New Hire Orientation

FINDING:

       Amtrak does not conduct a comprehensive new hire orientation program in a
timely manner for all new employees.



DISCUSSION:

         New hire orientation is a part of an employer’s new employee socialization
process and whose purpose (according to one current graduate level reference) is to
“provide new employees with the basic information they need to perform their jobs
satisfactorily, such as information about company rules.” 5 That source goes on to
say that:

            “a successful orientation should accomplish four things. The new employee
            should feel welcome….should understand the organization in a broad sense (its
            past, present, culture, and vision of the future), as well as key facts such as
            policies and procedures….should be clear about what the firm expects in terms
            of work and behavior…and begin the process of becoming socialized into the
            firms preferred ways of acting and doing things.” 6

       Therefore, it logically follows that the orientation should be delivered as soon
as possible in order to inform new employees about expected behaviors and potential
hazards. This would allow new employees to rapidly acclimate themselves to the
organization and make them conscious of its special hazards and behavioral norms.
As an example, the “boot camp” given to new military recruits serves this purpose.
Ideally, this orientation should be substantially similar for new hires at all levels (so
that they would have a common understanding of organizational expectations). A list
of topics or subjects might include broad organizational mission or goals, brief history,
behavioral norms (e.g., prevention of sexual harassment, and Equal Employment
Opportunity) and expectations such as safety standards and personal protective

5
  Gary Dressler , A Framework for Human Resource Management (Fifth Edition), (Pearson Prentice Hall, 2009),
pp. 160-161.
6
    Ibid.


                                                                                                          4
equipment, as well as familiarization with the basic company-wide systems such as
computerized employee support. A welcome by a senior manager may also be
appropriate at this point. Ideally, the process for inducting a new employee –
agreement covered or non-agreement covered 7 – would have this common
orientation built in at the very beginning, before any job-specific training is
accomplished. This would serve several purposes, foremost among them ensuring
that the new employee was given information at the outset of his/her employment
which would allow them to know and observe minimal safety precautions and conform
to organizational behavioral expectations.

        To see how other companies orient their new employees, we benchmarked
against another Class I railroad. This railroad has an orientation process in place for
all their new hire agreement employees and non-agreement management associates.
In this organization, which had approximately 50% more new agreement hires than
Amtrak in 2007 (2101 vice 1389), there is a common orientation which is consistently
delivered. Although their 30,000 employees come from an area that covers almost
half of the United States, all new hire agreement employees, regardless of craft,
receive orientation at one central training facility on the first day of employment,
followed by job specific training. This orientation is virtually identical for all crafts,
and covers core company issues including safety, personal protective equipment, life
style, expected behaviors, EEO, and company history and goals – in essence, the
“culture” norms of the company. Non-agreement management associates and
operations supervisors receive similar orientation at the same facility. Significantly,
one of the first day orientation topics is safety, and that carrier has an overall safety
record that has ranked at the top of the industry for 20 consecutive years. When
asked to name the major advantage of this approach, the facility manager stated that
it “provided consistent delivery of training in a controlled environment.”

       At Amtrak, we were told that a new employee’s orientation is conducted in two
parts. The first part usually takes place on an employee's first day when they fill out
most of their corporate paperwork. At this time, they are given a packet containing
numerous copies of corporate policies (see Appendix III) by representatives from the
HR&DI Department. We were told that little to no time is spent discussing most of
these polices with the new employee, but that they are expected to read them on
their own. We were told this is done to insure new employees are made aware of
expected behaviors and potential hazards associated with their new job before they
start work.

       The second part of the new employee’s orientation is done in a formal class
setting. We were told that this can be accomplished either through a corporate
orientation course (SAP course #60000163 – New Employee Orientation Workshop),

7
  Note: for brevity, these will be referred to as “agreement” and “non-agreement” employees, respectively, in the
remainder of this report.



                                                                                                                    5
or through one of several individual new hire orientation courses conducted by the
operating departments. While the orientation topics covered by these courses are
similar, they are not the same, and they do not go into the same depth in each topic.

       A review of the training records of all 1097 employees hired during the first 6
months of 2009 showed that 477 (43%) had documented completion of the New
Employee Orientation Workshop. Of the remaining 620, at most 338 could have
instead attended a new hire orientation course conducted by the operating
departments to receive their initial orientation. This leaves at least 280 (25%) of the
new employees hired during the first 6 months of 2009 who had not received a new
employee orientation class within 90 days of being hired. 8

        If the goal of the new hire orientation is to ensure that all new employees
receive a proper orientation, including an understanding of the company’s history,
organizational mission and goals, key policies and procedures, behavioral
expectations, and potential workplace hazards within the first days of their
employment, we can conclude that Amtrak’s current program does not meet that
objective for every new employee. Although it is not a bad idea to give new
employees copies of key corporate policies on their first day on the job, not all
employee’s will read the policies and without a face to face presentation to highlight
key elements and an opportunity to ask questions, the odds that the employee will
fully understand and internalize the information is low. In addition, as our analysis
showed, not all employees receive an orientation in a formal class setting within 90
days of starting work, if ever.

         We believe that there are many positive benefits to having every employee
attend an orientation in a formal classroom setting on the first day of the job. Besides
ensuring employees understand safety practices, organizational goals, organizational
policies and behavioral expectations, this formal orientation is also a valuable
socialization process. Absent this, new employees learn the social norms from other
employees on a hit or miss basis. Without this timely delivery, Amtrak forfeits forever
its initial chance to consistently and positively mold employee behavior and the
organizational culture.




        8
          Curiously, although we were told that any of these departmental new hire orientations met the
requirement for a new hire orientation, we found a large number of the new employees in the operating
departments had apparently attended both a departmental new hire orientation and the corporate New Hire
Orientation Workshop, or were erroneously given credit for both in the resords.



                                                                                                          6
RECOMMENDATIONS:

1A1. That the Vice President of HR&DI schedule all new employees for the New
Employee Orientation Workshop, or equivalent, as soon as possible after their hiring
date, preferably on the first day on the Amtrak payroll.

1A2. That the Vice President of HR&DI track and report on a quarterly basis the
number of new hires that have not attended the New Hire Orientation Workshop, or
equivalent, within 30 days of hire.




                                                                                       7
1B. New Hire Training (Job-Specific)

FINDING:

          Job-specific initial training is inconsistently delivered to new employees.



DISCUSSION:

       Training is conducted to instruct employees how to properly perform certain
tasks. If two new hires with no significant previous experience doing the same type
of work receive different training, one can conclude that either one employee (who
received less training) was not properly prepared or that resources were unnecessarily
expended on the second (who received more training). This is one reason that many
organizations standardize training for various occupational specialties. Consistent
training, properly accomplished, leads to more consistent accomplishment of the task
or duty for which the individual was trained. This in turn supports increased quality.
If tasks are performed in the same way then the outcome should be more consistent.
Greater consistency also results in both improved efficiency (less rework or corrective
maintenance) and potentially a safer operating environment, since safety has been
considered, or designed into, the process to ensure employees are taught the
“proper” and safe way to accomplish a particular task, reducing possibilities for
confusion and accidents.

       As discussed previously, Amtrak conducts new hire training for agreement
employees at a variety of locations across the system. Since most of the agreement
employees work in the operations departments 9 – Mechanical, Engineering, and
Transportation – our evaluation focused on new hire training in these departments.
Appendix IV contains a matrix of training accomplished within the first 30 days by 39
(23 percent) of the 167 Mechanical Department employees hired in 2007, as well as a
smaller sampling of those hired in Engineering and Transportation.

       Looking at the matrix, it can be seen that new hire initial training is conducted
at more than 10 separate training locations spread across the country, although not
every employee receives initial training at the specific location where they will be
assigned to work. In addition, there is a substantial lack of consistency in which
courses were taken between training locations, even within the same craft. For
example, there was not one single training course that was given to all car cleaners in
the records sampled. Even at the same location, the sample indicated that there were
10 instances of mechanical employees of the same craft who received a different set

9
    15,103 of 16,886 or 89 percent.


                                                                                        8
of initial job-specific training courses at the same location. A less detailed review of
the other two operating departments disclosed evidence of similar inconsistencies,
although to a lesser degree. In the case of new hire On-Board Service (OBS)
employees in the Transportation Department, only four of thirteen typical new hire
courses were given to all new employees, and new hire ticket clerks displayed similar
inconsistencies. Since our initial sampling utilized 2007 data, we again checked a
sample of new employees from the first six months of 2009 to see if the earlier results
had changed. Although we are aware of some recent positive initiatives to identify
and program initial job-specific training for new hire employees, our limited 2009
sample still showed similar inconsistencies.

        In our benchmarking against two other major Class I railroads, we found that
both experience far greater consistency of job-specific training delivery. In particular,
the one which brings all new agreement employees to a centralized training facility
provides consistent delivery of both orientation and job-specific training to all new hire
agreement employees. This ensures a minimum standard of competence, and assists
in setting common expectations (“culture”) across the system.

       Interestingly, when one of the senior Amtrak ED managers – who was
responsible for all training within one of the operating departments – was asked
whether Amtrak should move toward centralized training, the immediate response
was “I’d be very happy if we started (centralized training) tomorrow!” This was
echoed by many of the managers we talked to throughout the company. There are
advantages and disadvantages to centralized training, but consistency of delivery is a
clear advantage. The effects of consistency of training on quality of product,
organizational culture, and safety cannot be ignored. Interestingly, the class I we
benchmarked which utilizes a single centralized training facility for new hire training
has also held the Harriman Gold Medal Award for the best safety record in the railroad
industry for 20 consecutive years.


RECOMMENDATION:

1B. That the VP for HR&DI lead an effort to identify, with input from each Amtrak
department, the initial job-specific training required for each position within Amtrak,
and track whether new hire employees start this training within the first 30 days of
employment.




                                                                                          9
1C. Subsequent Training

FINDING:

       Training requirements for employees, subsequent to their new employee
orientation and initial job-specific training, are inconsistent and not well understood
across the corporation.

DISCUSSION:

        After completion of new employee initial training, there are still many
requirements for additional training throughout an employee’s career. This training is
necessary to improve and/or refresh existing knowledge, skills and abilities (KSAs) or
to develop new KSAs. Training to improve or refresh existing KSAs may be necessary
due to regulatory requirements in the Code of Federal Regulations (e.g., CFR 49, Part
238 training), due to company policy (e.g., Information Security Awareness training),
or simply to ensure KSAs do not degrade to an unacceptable level due to lack of
frequent use (e.g., CPR training). Training to develop new KSAs may be necessary
for various reasons: new equipment has been purchased, revised or new procedures
have been developed, new regulatory requirements have been put in place, policies or
guidance have changed, job responsibilities have changed, etc. In each of these
cases, training may be necessary to ensure that employees can efficiently and
effectively perform their jobs.

        Identifying and keeping track of what training is needed for an employee at
Amtrak is largely the responsibility of individual supervisors. This is appropriate since
supervisors best know their employees and their daily job requirements. However,
supervisors need help in understanding the training that is available and the
mandated requirements contained in all of the applicable regulations and policies.
Some departments help managers meet their responsibilities in this area by
consolidating many of the requirements into a centrally managed program, like Block
Training or Engineering Camp. However, not all departments have a centrally
managed program and even those with centrally managed programs do not address
all of the same requirements with the same frequency as other departments do. This
potentially results in employees at Amtrak who are doing similar jobs receiving
significantly different types and amounts of training depending on what department
they are assigned to and what supervisor they work for.

       The HR&DI Department has recently attempted to help managers in identifying
required training by posting guidance on the Amtrak Intranet. For example, there is a
Regulatory Training Matrix posted that appears to outline all of the regulatory training
required, along with the frequency required, for supervisors in four of the five largest
departments. Although very helpful, the guidance posted by HR&DI is focused only


                                                                                          10
on supervisors and only on four departments. We could not find similar published
guidance for agreement employees in these departments or for any of the employees
in the other Amtrak departments. We were told regulatory training is managed and
tracked closely within the operating departments. Although we have no recent
evidence to suggest that regulatory requirements are not being met, there is no one
in the corporate headquarters responsible for providing overall corporate oversight of
regulatory compliance.

        Without specific guidance from corporate and department leaders, training is
left to the discretion of individual managers, which may not be in the corporation’s
best interest. For example, there was a course developed (Course #60000879) to
train employees in how to properly conduct maintenance on the door systems on
Horizon cars. Now that there is a course developed and available, who should attend
that training and at what frequency? Should all employees who work on doors on
Horizon cars attend that training? If not, why not? Is it acceptable that an employee
at one location receives the training because his supervisor thinks it is important and
another employee who works on Horizon cars at another location does not receive the
training? In a similar manner, it is suggested that every employee receive training on
the Prevention of Sexual Harassment every three years. Since it is only “suggested”,
is it acceptable for one department to send every employee to training every three
years and another department send no one? Will this satisfy the corporate objective
that led to the creation of the course? These are the types of questions that should
be asked for every course Amtrak offers if Amtrak wants to ensure it is accomplishing
its intended training objectives in the most efficient manner.


RECOMMENDATION:

1C. That the VP for HR&DI, working with the department heads, develop specific
guidance on who should attend each course offered and the frequency in which it is
required to meet the intended objective of the training.




                                                                                     11
1D. Training Strategy

FINDING:

      There is no comprehensive, corporate-wide strategy linking employee
development and training with Amtrak’s strategic goals and objectives.

DISCUSSION:

        As previously described in detail, training at Amtrak is mostly decentralized
with requirements largely determined by individual departments. This is perhaps
appropriate in most instances since the departments better understand their needs
than someone within corporate headquarters. However, there are certain
requirements that should be consistent across the corporation. In addition, without a
corporate-wide emphasis and commitment to training and employee development,
resources are not consistently allocated to training activities and sometimes become
the first area cut when budgets become tight. Therefore, to ensure that training and
employee development receive consistent and appropriate emphasis throughout the
corporation, a corporate-wide strategy containing an overall philosophy and guidance
to the departments is necessary.

RECOMMENDATIONS:

1D1. That the Amtrak President issue a corporate-wide strategy for training and
employee development providing guidance to the corporation on the linkage of
training and employee development to the achievement of Amtrak’s strategic goals
and objectives.

1D2. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop consistent, corporate-wide policies and procedures to support the strategy.




                                                                                      12
1E. Training Efficiency

FINDING:

           The current Amtrak training approach appears to be relatively inefficient.

DISCUSSION:

        As stated previously, Amtrak spends over $12 million on the delivery and
management of training each year. To evaluate the efficiency of Amtrak’s training,
we compared Amtrak’s costs to training costs of other large companies using a
benchmarking report we obtained from America’s SAP Users’ Group, of which Amtrak
is a member. This survey was issued in January 2009, using data provided by
Amtrak 10 . The results had two peer groups, but we utilized the results from the
group which included “companies of similar size” to Amtrak (10,000 to 50,000
employees). As shown in the chart below, the survey found that the annual cost per
employee for training and development at Amtrak was roughly four times the average
of the 18 companies in the peer group, $660 versus $152. In and of itself, this may
just reflect that Amtrak does a lot more training than other companies. However, the
same survey reports the average annual hours of training per employee. Based on
this data, the chart below also shows that, compared to other companies in the
survey, Amtrak’s cost per training hour is over three times greater. Based on this
benchmarking, Amtrak appears to be significantly less efficient in the delivery of
training than other companies in the survey.


                  Training & Development Performance Metrics
                              800
                              600
                              400
                              200
                                 0
                                      Cost ($)     Trng Hrs     Cost/Hr
                        Amtrak          660          35.6         18.5
                        Peer Avg        152          26.6          5.7
                                      Cost & Hours per employee
                                               per year




10
     HCM Benchmarking Results – Executive Summary, SAP Value Engineering, January 22, 2009.


                                                                                              13
       To further test this result, we also looked at a benchmark within the railroad
industry. In an attempt to best give an “apples to apples” comparison we compared
Amtrak to another Class I railroad in the specific area of new hire orientation and
training. The results are shown on the following table, which combines data
regarding the Amtrak training staff devoted to new hire training at a major Class I
railroad, which was benchmarked in substantially greater detail during this evaluation.
As shown on the chart below, the Amtrak training staff devoted to new hire training
per new hire is over 40% more than the Class I railroad.

New Hire Training Comparison              Amtrak                   Class I Railroad
Total Employees (approx)                  19,000                   31,000
2007 New Hires                            1389                     2101
Full Time Equivalents (FTE)               29 *                     31 **
devoted to New Hire Training
New Hires per FTE Staff                   48                       68

* At Amtrak, there are 72 employees on the staff of the Sr. Director, Employee Development, of which
51 are assigned fully or partially to duties involving training of new hire employees. The Sr. Director
estimated that the portion of their time devoted to new hire training was equivalent to roughly 17
FTEs. In addition, there are 12 FTEs who are Mechanical Department “network instructors” and
managers involved in Locomotive Engineer Training (LET) or new Conductor training. Therefore,
based on the information provided, Amtrak uses a total annual equivalent of approximately 29 FTEs to
accomplish new hire training.
** At the benchmarked Class I railroad, these numbers include 24 full time managers and 41
contractors. The total annual equivalent of these contractors is 7 FTEs, giving a total annual equivalent
of 31 FTEs to accomplish new hire training.


       Significantly, the Class I railroad used as a comparative benchmark above has
a single, centralized facility used for the training of all new hire agreement employees.
This provides for consistency, ease of communication among instructors, shorter span
of control, and (as shown in the table above) fewer instructors required per new hire.
In addition, this Class I uses retired railroad employees as contract instructors for new
hire agreement employees, bringing an additional measure of experience and
credibility to their classes. These are normally hired on a part time basis to reduce
costs and substantially increase flexibility and surge capacity.

        Both of these benchmarks suggest that Amtrak could improve the efficiency of
its training delivery. Although there could be many valid reasons for Amtrak’s training
costs to be higher than other companies, our own analysis also suggests training
could be delivered more efficiently. A review of Amtrak’s training records show a
large number of classes conducted with only between one and three students.
Greater emphasis on efficiency and planning should drive greater class sizes and
lower costs per hour of training. This would seem to be a relatively easy first step.




                                                                                                      14
RECOMMENDATION:

1E. That the VP for HR&DI, in consultation with other departments, explore options
for improving the efficiency of its training, including but not limited to increased
centralization of some or all of Amtrak’s instructor led training (particularly new hire
training), and use of part-time contractor instructor employees to provide a surge
capacity, if needed.




                                                                                           15
1F. Training Records

FINDING:

       Training courses taken by Amtrak employees are not consistently and
exclusively recorded in the Human Resources Information System (HRIS).


DISCUSSION:

      Training is conducted to ensure that employees have certain knowledge, skills
and abilities required to properly perform their job. Keeping records of this training is
important for several reasons:

       1. It allows supervisors the ability to match employees with certain skills to
       jobs requiring those skills.

       2. It allows supervisors to identify training needs and plan for future training
       requirements.

       3. It allows trainers to determine historical course attendance so they can plan
       for future resource requirements.

       4. It allows Amtrak to verify that certain regulatory training has been
       conducted. This is especially important in the case of a derailment, grade
       crossing accident, serious injury, or other significant event since the National
       Transportation Safety Board (NTSB) and/or other agencies may ask for this
       verification.

      Amtrak’s corporate policy directs that all training must be reported to the
HR&DI Department and that all training will be documented and tracked through
HRIS. Although there are some exceptions, the normal process is for training
documentation to be sent to the HR&DI Department, who enters the information into
HRIS.

       Our interviews revealed that not all departments at Amtrak totally rely upon
HRIS to document training taken by their employees. Many departments, in a variety
of geographical locations, keep their own paper records or their own computer files.
Not only is this an inefficient practice, it also makes it more difficult to obtain accurate
training information across the corporation. The reasons given for maintaining
separate or duplicate records were: the delay in time from when documentation is
sent in and when it appears in HRIS, a lack of confidence in the accuracy of the data
in HRIS, the limited ability for the field to enter or view data, and simply not wanting


                                                                                          16
to change from the way they had being doing it for years. Of the reasons given, the
biggest complaint was the manager’s limited ability to input and view training records
on their employees.

        Fortunately, Amtrak is addressing the issue of manager’s access to employee
records as part of the Employee Information Management (EIM) Program. By the
Spring of 2010, departments should have much greater access to view, input and edit
training records of their employees in HRIS. Managers should also have a greater
ability to view and generate reports regarding training of their employees. This
should help to eliminate many of the reasons for continuing to maintain separate
systems in the field to track training. Not only will the elimination of these duplicate
databases improve efficiency, but it will also improve the accuracy and reliability of
the data in HRIS since that will be the one and only record.


RECOMMENDATIONS:

1F1. That the VP for HR&DI continue to fully support the implementation of EIM so
that supervisors have the ability to easily view and manage their employee training
records.

1F2. That, once EIM is sufficiently implemented, the VP for HR&DI develop policies
and procedures to ensure that all training is being appropriately captured in HRIS, and
that duplicate records are not continuing to be maintained.




                                                                                      17
1G. Instructor Certifications

FINDING:

      Amtrak has no corporate-wide methodology to ensure that all instructors are
appropriately trained and certified for the courses they teach.


DISCUSSION:

       An important attribute for any instructor is credibility. For effective learning to
take place, students must trust what they are being told by the instructor. If the
credibility of the instructor is in question, then the accuracy of the material being
presented is also open to question. Once an instructor loses his or her credibility with
the students, effective learning will be compromised.

        An instructor gains credibility by demonstrating an in-depth and current
knowledge of the subject area they teach and by obtaining and maintaining the
appropriate certifications and qualifications. In addition to having technical
knowledge in the subject area of the class, instructors gain credibility through the way
they present the material and run the administration of the course. This requires a
certain level of expertise in proper teaching techniques and platform skills. Not
everyone with the technical skills required to teach a course also have the teaching
and platform skills needed to present the material in a clear and interesting manner.
Skills in both areas are needed for the most effective learning to take place.

        During the course of our interviews, we were told that not all individuals
assigned as Amtrak trainers were current in the qualifications and certifications
necessary to teach their respective courses. Many instructors expressed frustration
that it was difficult to maintain their credentials at the frequencies required for each
course. We were told that requests to attend certification classes were sometimes
denied because of budget restrictions or because workloads were too high to allow
someone to be gone. In attempting to follow-up on these comments with the HR&DI
Department, we learned that qualifications to teach the various courses are not
centrally determined but up to various subject-matter experts and other individuals
within different departments throughout the company. Because of this, it was difficult
to determine if the comments we heard were truly valid or simply a perception by the
individual instructors of what they felt that they needed to properly teach the course.
In either case, a corporate-wide determination of the qualifications and certifications
necessary to teach each course at Amtrak would seem to be useful, if for no other
reason than to clear up the confusion we heard.




                                                                                        18
       In addition to having the appropriate technical qualifications to teach a course,
Amtrak recommends that all instructors pass a course on platform skills to prepare
instructors to be effective before they start teaching. Although recommended, we
learned that not all instructors receive this training before they start teaching classes.
As discussed previously, not everyone with the technical skills required to teach a
course also have the teaching and platform skills needed to present the material in a
clear and effective manner. Without instructors with the appropriate teaching skills,
learning can be compromised. It would seem to be in Amtrak’s best interests to
insure that all instructors are qualified in teaching and platform skills before they start
teaching classes and are recertified at an appropriate interval.

        Overall we feel that there is a lot of commendable effort being expended to
present interesting and accurate training at Amtrak, however, setting and maintaining
instructor qualifications is one area that could receive additional emphasis. If only a
few instructors present inaccurate or out-of–date information, it can hurt the
credibility of the entire program. Although we do not have evidence this has
occurred, without a method to insure that the proper certifications and qualifications
are maintained by all instructors, the likelihood that this may occur is increased and
should be avoided. Once credibility is lost, it is hard to regain.


RECOMMENDATIONS:

1G1. That the VP for HR&DI develop a policy that establishes the minimum
qualifications and certifications required to be an instructor for each course taught at
Amtrak.

1G2. That the VP for HR&DI develop a program to insure that all Amtrak instructors
achieve and remain in compliance with the above policy.




                                                                                         19
1H. Computer Based Training Validation

FINDING:

       Amtrak does not have adequate procedures or technology in place to ensure
that individuals that are credited for taking required computer based training (CBT)
programs are the same individuals that completed the courses.

DISCUSSION:

        CBT programs are an effective and efficient way to conduct many types of
training. They offer employees flexibility in where and when they can accomplish
training and are a very efficient way to deliver training since, in most cases, live
instructors are not required and employees can take the training without having to
travel to a centralized classroom facility. As more and more training is being delivered
in this manner, new issues have surfaced that require addressing. One of these
issues is validating that the person taking the CBT course is the person that is
credited for taking the course. This becomes important when having to certify that
certain individuals have successfully fulfilled a mandatory or regulatory requirement.

        In a normal classroom training environment, an instructor can validate that the
person who sat in the classroom or took the test was the person given credit for the
training by simply examining a properly-issued picture ID. This becomes more
difficult when a CBT course is taken from a remote location.

       At Amtrak, the only validation currently in place is the “assumption” that the
individual taking the training course matches the individual whose password was used
to log onto the CBT course. As far as we are aware, there is currently no other
independent verification being done for CBT at Amtrak.

        As part of our benchmarking with other railroads, we observed how another
railroad is attempting to address this issue. At their main training center, they have
mounted cameras on top of the screen for each computer utilized for CBT
coursework. The camera randomly takes pictures of the individual sitting at the
workstation while a test is being taken. This monitoring feature is activated when an
identification card is scanned and the computer is logged on utilizing an individual’s
Personal Identification Number. The frequency of “snapshots” of the trainee can be
adjusted based on the length of the testing period. Within 24 hours, members of the
railroad’s training staff review the class rosters and workstation pictures to ensure the
correct person is credited for taking the test. After this, the validations are
documented and the testing certified. This procedure ensures that the right people
are certified. The railroad’s senior training staff feels that this procedure meets their
needs for CBT validation, and has withstood the scrutiny of a regulatory audit.


                                                                                       20
       This Class I railroad’s method is one way to address this issue. The use of
biometrics is another possible solution. As technology advances, other solutions may
become available. In any case, this is an area that Amtrak should consider as it
expands the use of CBT throughout the corporation. There is a lot of money currently
being spent to update and improve Amtrak’s information systems. Incorporating a
method to validate the identity of an individual using a computer may have benefits
beyond just training validation and should be considered as part of the information
technology initiatives currently underway at Amtrak.



RECOMMENDATION:

1H. That the VP for HR&DI, working with the Chief Information Officer, develop
procedures to ensure that individuals that are credited for taking required computer
based training programs are the same individuals that completed the courses.




                                                                                       21
1I. Terminology

FINDING:

      Understanding training at Amtrak is inhibited by the lack of consistent
terminology and commonly understood definitions across the corporation.

DISCUSSION:

     Consistent terminology and commonly understood definitions improve
communication and facilitate good understanding.

        During our interviews, we noticed a significant amount of confusion in the
terminology used when discussing training. For example, we heard the term
“regulatory training” used frequently as a category of training at Amtrak. However,
some individuals thought that regulatory training referred only to those courses
required by federal regulations. Others thought that “regulatory” was synonymous
with “mandatory” and included training required by any law, regulation, policy or
directive. Others even included training “suggested” or “recommended” by any law,
regulation, policy or directive in this category. As can be seen, attempting to
determine the training burden on Amtrak from federal regulations is difficult if
terminology is not consistent.

        Another example of inconsistent terminology concerns what constitutes
“training.” Can meetings and briefings be considered training, or does all training
have to have an Amtrak course number? If meetings and briefings can be considered
training, what criteria must be met? We did not get consistent answers to these
questions.

       As a final example, we encountered confusion between the terms managers
and supervisors. Some people thought that the terms could be used interchangeably
and referred to employees who supervised other employees. However, other people
thought that all “management” employees were managers, whether they supervised
anyone or not. In addition, many people were confused if foreman were considered
supervisors or managers. This becomes an issue when a training requirement is
published for all “managers” to receive a training course within a certain timeframe.
Without fully understanding who needs to attend, how can it be determined if the
requirement has been met?

       Some may think of terminology as a minor issue. However, if Amtrak is going
to take training seriously and hold supervisors accountable for ensuring that their
employees are properly trained to perform their jobs, terminology and definitions
must be clarified. Without consistent terminology and definitions, any training metrics


                                                                                    22
or reports must be questioned and the information provided considered as
approximations of the truth, at best.

RECOMMENDATION:

1I. That the VP for HR&DI develop and publish a glossary of common training terms
and definitions to facilitate communication and common understanding throughout
the corporation concerning training and employee development topics.




                                                                                23
2. Management Employee Career Development

2A. Management Employee Career Development Strategy


FINDING:

      Amtrak does not have a comprehensive, integrated, corporate-wide career
development strategy for management (non-agreement) employees.

DISCUSSION:

       Most top companies have a strategy for developing future senior leadership.
They identify the attributes, education, experiences and technical expertise that they
desire in their senior leaders and then implement a management development
strategy to grow these future senior leaders from the ranks of their current
employees.

        In their book Built To Last, a widely publicized study that examined
characteristics of successful, visionary companies (e.g., GE and Motorola), the authors
identified a “continuous self-reinforcing process – a Leadership continuity loop” which
was characterized by:

        1) Management Development & Succession Planning
        2) Strong Internal Candidates
        3) Continuity of Leadership Excellence

The study noted that the result of such a process was an internal “deep bench” of
talented, experienced managers to assume senior leadership roles. 11

      During our benchmarking with other railroads, we found that one Class I was
very good at addressing these issues. Their Assistant Vice President of Human
Resources expressed his biggest concern as:

        “I worry that we are not going to be able to attract and retain sufficient high
        quality, technically qualified managers (e.g., electrical or mechanical engineers)
        to lead the company 15-25 years from now.”

Perhaps unsurprisingly, his company has proactively addressed most of the issues
discussed in this report, and is constantly looking for innovative new solutions. Its

11
   James C. Collins & Jerry I. Porras, Built To Last: Successful Habits of Visionary Companies, (New York:
Harper Business,1994), pp. 173-180.


                                                                                                             24
Chief Operating Officer (COO), previously its head of strategic planning, was recently
selected as the recipient of the 2008 Railway Age Railroader of the Year Award 12 . An
accompanying article noted that this railroad “is known for having a ‘deep bench’ of
executives,” and in the operating department this has been the COO’s doing. 13
Further reflecting the AVP comment above, the magazine stated in a subsequent
article that this railroad “…has much more than a culture of survival. It combines that
with an ability to plan ahead, often beyond the tenure of the people doing the
planning.”14
Not surprisingly, this Class I railroad has a strong, cohesive focus on management
development, and in fact has a longstanding, active recruiting program for
management trainees – recent college graduates, many with technical degrees – who
are screened with a validated management assessment tool to maximize their
probability for success, and subsequently assigned to an extended orientation and
training program.

       Although there are elements of a career development program in existence at
Amtrak, there is no comprehensive, integrated management career development
strategy. Over the last ten years, Amtrak has made eight changes in the top three
leadership positions of the company (CEO, COO, and CFO). Of those, only one was
promoted from a position within the company. Likewise, of the current ten members
of the Executive Management Committee, only two were promoted from a job within
Amtrak. Obviously, in all but these few cases where individuals were promoted from
within, the hiring officials (CEO and/or Board of Directors) did not feel that any of the
current Amtrak employees were best qualified to meet the demands of the most
senior positions in the company. This conclusion was apparently reached in spite of
the significant advantage that a current employee should have over an outsider in
understanding the operations and challenges facing the company.

        Sometimes bringing new ideas into a company from someone who has been
successful elsewhere is a good idea. However, there are also many good reasons to
develop talent inside the company to assume future leadership positions. First, an
internal candidate has a performance history within the company that has been
directly observed by senior leadership. In many cases, when someone is brought in
from outside the company there is little direct observations of their past performance
and therefore greater risk that the individual will not be as qualified as represented on
their resume or by their references. Second, someone who has grown from within
the company will have a much greater knowledge of the history and culture of the
company, along with the challenges and obstacles facing the company. Third, hiring
an internal candidate provides someone who usually knows what has been tried

12
   W. Graham Claytor, then Amtrak CEO, was the 1989 awardee.
13
   Laurance H. Kauffman, Contributing Editor, “Steve Tobias: Mission Focused,” Railway Age, January 2008, pp.
19-48.
14
   Lawrence H. Kauffman, Contributing Editor, “A Culture of Survival and Forward Thinking,” Railway Age,
November, 2007, p. 24.


                                                                                                          25
before and can avoid learning the same lessons over again. Finally, the selection of
an internal employee provides continuity and someone who will not need a lengthy
indoctrination period.

        This does not mean that hiring from inside the company is always the best
choice. Hiring someone who doesn’t have the appropriate educational background,
doesn’t have the necessary attributes, skills and abilities, or hasn’t been properly
trained and developed – just because they are an insider – is also not a good idea.
Without a corporate-wide career development program, Amtrak will constantly face
the poor choice of selecting someone for a senior position who is less qualified but
understands Amtrak, or someone who may be more qualified but doesn’t understand
the company and is potentially a greater performance risk. This is not to say that
there are not some good, highly skilled managers at Amtrak, but without a program
that ensures they have developed all of the desired skills and acquired the knowledge
and experiences desired at the senior management level, the odds that they will be in
a position to compete against qualified individuals from outside the company are
reduced. The worst case scenario is that the hiring officials are faced with mid-level
and senior management vacancies with no qualified external candidates and no one
who has been properly developed to fill the position from within Amtrak. In this case,
the organization suffers while a manager without the requisite knowledge and skills
tries to learn on-the-job. From our observations, this happens too often at Amtrak.

       Realizing the importance of this issue, the heads of two Amtrak departments,
with help from the HR&DI Department, have independently started initiatives around
career development. The Information Technology (IT) Department has identified 15
job families and is developing standardized position descriptions within each family, as
well as the competencies and critical skills required for each. Similarly, the
Engineering Department utilized a consultant to develop job families and career paths
for degreed engineers (civil, electrical, mechanical, and structural). These programs
show outstanding initiative by the department leadership but lack inter-departmental
consistency and are limited in what they can accomplish without a corporate-wide
program. For example, unless there is a corporate requirement to work in a position
outside of a manager’s primary expertise to advance to the next level, there will be
limited incentive for a senior manager in, for example, the Finance Department to
send one of his more talented subordinates to work in the Engineering Department.

      In developing an effective Management Career Development Program at
Amtrak, the following elements should be included:

             •   A program to recruit and develop recent college graduates and
                 provide them with appropriate initial indoctrination and training.
             •   A method to screen candidates for management positions and
                 promotions to ensure they have the attributes required for those
                 positions.


                                                                                       26
                •   Documented career paths that outline the job experiences desired
                    and expected for selection and advancement within the company.
                •   Educational standards for all management positions, with assistance
                    programs to assist employees in attaining those standards.
                •   A program to develop the leadership and management abilities
                    required at different levels within the company.

          Each of these elements will be discussed in greater detail in the findings that
follow.

RECOMMENDATION:

2A1. That the Amtrak President, with the support and approval of the Board of
Directors, issue a corporate-wide strategy for developing management employees to
assume the future leadership roles within the company.

2A2. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop consistent, corporate-wide policies and procedures to support the
management career development strategy.




                                                                                            27
2B. Management Candidate Aptitude Screening


FINDING:

      Amtrak does not use screening instruments for entry into management (non-
agreement) positions.



DISCUSSION:

       Recruiting, hiring and training new employees is a relatively costly process.
Therefore, anything that could improve the odds of selecting a new employee with
the attributes necessary for successful performance should be considered. Screening
candidates with properly validated assessment instruments (sometimes called “tests”)
is one way to improve the likelihood that an employee will have the attributes
required to be successful. Some common assessments are cognitive ability tests, job
knowledge tests, personality tests, integrity tests and situational judgment tests.
These tests have been found to have a moderate to high validity, meaning that those
who “do well on the test do well on the job.” 15

       Amtrak currently uses a variety of screening instruments in their assessment of
potential agreement employee hires. For example, prospective trainmen are given a
personality inventory and tests in reading comprehension, problem solving,
computation, and vocabulary. Other crafts are similar, with three tests for lead
service attendants (LSAs) and ticket agents, two for electricians, and one for carmen
and pipefitters.

       In similar fashion, the two Class I railroads we benchmarked against both used
similar screening instruments for entry into the agreement ranks. In addition, both
the Class I’s also used “management assessment” screening instruments for entry into
non-agreement (management) ranks, and applied them to both management
associates or trainees as well as those promoted from the agreement crafts. At one
Class I, the management assessment was designed to measure the attributes of
successful current managers. In developing the assessment, successful incumbent
managers were interviewed and tested to determine what characteristics, both
cognitive ability and personality traits, were common among them. These results
were validated and incorporated into a “management assessment” which was given to
all candidates and potential future candidates (including newly hired agreement
employees) for management positions within the company. The company believed


15
     Dressler, op cit., pp. 118-119.


                                                                                    28
that this enabled their managers to be more likely to succeed over time, which is
clearly in the best interests of both the individual and the organization.

         We found that Amtrak, by comparison, did not use any screening instruments
for entry into non-agreement positions. Although a successful company needs good
employees in both agreement and non-agreement positions, the impact of an ill-
suited or poorly performing manager is disproportionately greater and arguably more
critical to the success of the organization. Since Amtrak screens candidates for
agreement positions, we were surprised that non-agreement candidates were not also
screened.

       If Amtrak were to adopt a similar “management assessment” for screening all
entries into non-agreement ranks, it would be more likely to select successful
candidates for these positions - clearly a more desirable outcome.

RECOMMENDATION:

2B. That the VP for HR&DI develop and implement an appropriate management
assessment tool for all applicants for non-agreement employee positions.




                                                                                    29
2C. Management Associate/Trainee Program


FINDING:

        Amtrak’s Management Associate Program (MAP) is ineffective in providing
sufficient management talent to satisfy Amtrak’s long term needs.

DISCUSSION:

       For most companies, management associates (or management trainees) are
one of three sources for management employees; the other two being direct external
hires and promotions from the craft (agreement employee) ranks. Most
management associates are recent graduates of a four year college or university who,
immediately after being hired, undergo an orientation and training program to further
prepare them for duties as a manager in the company. These management
associates provide a source of young, educated talent that can be developed into mid
and senior-level managers within the organization, often with the requisite technical
degrees directly related to their initial departmental area of assignment. Over time,
as they progress within the company and gain experience with its operation and
organization, they can leverage their undergraduate education for the broader needs
of the company.

        Management associate programs are common in many organizations, although
sometimes called something else. For example, 18,000 “management trainees” enter
the U.S. military every year as entry level officer candidates who – in addition to
baccalaureate degrees – have undergone additional “job specific” training either
concurrently with the attainment of their degrees (military academy or Reserve Officer
Training Corps) or subsequent to its completion (officer candidate schools). The
ranks of senior military officers are almost exclusively comprised of those who have
entered the service as a “management trainee.” Another example is one of the Class
I railroads we benchmarked, where we observed an active management trainee
program that historically provided, according to their AVP for HR, over 50
management trainees a year. These trainees, drawn from top tier colleges and
engineering schools, initially undergo a similar one year initial (new hire) training
regimen and then rise through the ranks of alternating corporate and field
assignments, detailed among various departments as “corporate assets” to broaden
their experience levels. The program at this Class I is tied to their workforce planning
efforts and directly linked to their projected requirements. For example, the company
recently increased their annual recruitment of management trainees from 75 to 125,
reflecting the requirements of their long term strategy. When questioned about this,
their AVP for HR said that his most critical, long term concern was that his company
must be able to have the experienced talent to succeed in the business environment


                                                                                     30
“15 to 25 years from now.” The result of this long term, strategic view is evident
today by the 776 former management trainees in their management ranks –
approximately 25 percent of their potential senior level managers – including their
current CEO.

      In contrast, Amtrak’s “Management Associate” Program has had almost no
impact on developing the managerial talent pool. Specifically:

             •   There is no overall strategy for the program that is tied to a
                 corporate-wide human capital strategy which, in turn, supports the
                 overall corporate strategic goals and objectives.
             •   There is no linkage between the numbers in the program and
                 projected losses in the management ranks or workforce planning in
                 general.
             •   There is no coherent, consistent program structure with a common
                 corporate-wide core, and the composition of the initial training varies
                 at the discretion of the department assigned.
             •   There is no effort to track former management associates within the
                 company and broaden their experience base.

Although Amtrak could not tell us the number of former Management Associates
currently within Amtrak, a simple ratio can give a rough approximation. If a program
that brings in 50 to 75 associates per year leads to roughly ten times that number
(776) of former trainees in the management ranks at another Class I, then the Amtrak
program – at approximately 5 to 10 a year – might eventually provide approximately
50-100 former management associates, or at best 4 percent of the roughly 2,850
Amtrak non-agreement employees. This is so comparatively small that its long term
impact is questionable.

       In discussing this with the Acting VP for HR&DI, she was concerned about
funding needed to support an expanded program. Obviously a greatly expanded
program will need additional funding beyond what is currently allocated. Once the
requirements of an expanded program are known, this would need to be discussed
with the Chief Financial Officer (CFO).

RECOMMENDATIONS:

2C1. That the VP for HR&DI review and revise the current Amtrak Management
Associate Program to fill an appropriate and effective role within the new
management career development strategy.

2C2. That the CFO identify funding within Amtrak’s corporate budget to meet the
needs of the revised Management Associate Program.



                                                                                      31
2D. Career Progression Paths & Job Families

FINDING:

        Amtrak does not have documented career progression paths or job families
identified for all non-agreement employees.


DISCUSSION:

        Career progression paths serve to both identify the expected path for
management progression and to assure individual managers that they are making
proper career choices to increase their likelihood of advancing within the organization.
Job families are broader fields of positions linked by similar endeavor or technical
skills (e.g., engineers). Examples of these in other companies are both relatively
common and widespread. The military has fairly structured career paths for officers
as they progress, and also has job families, such as aviators.

       Likewise, we found similar career progression paths for non-agreement
employees within the two Class I railroads benchmarked, with one of the two even
including this information on job postings to indicate both what prior experience a
successful internal candidate would likely possess, and to what subsequent positions
that position might lead. This railroad had seven broad job families, 16 and all non-
agreement positions within the company were classified as belonging to one of these
families. For example, a Road Foreman would be in the General Operations family.
This Class I also had ongoing monitoring at the corporate HR level to ensure these
paths were generally followed as non-agreement employees were transferred or
promoted. This approach would tend to give a junior manager an idea of what
position he/she could aspire to next. Additionally, these individual job families were
linked to scores on the company management assessment screening tool so that
candidates for a position in a particular job family could be screened for their probable
success in that field. The assessment provides individual scores for each job family,
similar to the manner that scores in the Armed Services Vocational Aptitude Battery
(ASVAB) are linked to particular occupational fields.

       By comparison, we were told Amtrak has neither documented career
progression paths nor job families (with the exception of the previously discussed
recent efforts in the IT and Engineering Departments). Because there are no
documented career progression paths, managers are forced to rely on opinions and
personal observations of others when making career choices. Moreover, without
documented career paths, it is difficult to ensure that Amtrak is “growing” individuals

16
  Commercial Services, General Analytical, General Operations, Investigative Research (e,g., police), Process
Support, Technical Analytical (e.g., I.T.), and Technical Operations (e.g., Control Center).


                                                                                                                32
with the proper skills and experiences to be the future leadership. The current
situation at Amtrak tends to generally result in a non-agreement workforce with
experience only within the confines of the department or location where they began
their employment, contributing to poor interdepartmental coordination and synergy.

        Ideally, positions requiring similar attributes, skills or expertise should be
managed as a “family,” with someone designated to nurture those in the family,
ensuring they get the appropriate training and have the required experiences to allow
them to grow and succeed in the future. This could be done corporately within the
HR & DI Department, or as an additional duty of one of the senior leaders at Amtrak
(e.g., the Chief Engineer for the “engineer” family or General Counsel for the “legal”
family.) In either case, it is important that someone is responsible to oversee and
manage the careers of the non-agreement workforce to ensure that Amtrak is
developing employees with the skills and experiences required in the future.



RECOMMENDATIONS:

2D1. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop broad company-wide job families and career progression paths for all non-
agreement positions.

2D2. That Amtrak’s President designate either the VP for HR&DI or other Amtrak
senior leaders to oversee and manage these families and career paths.




                                                                                     33
2E. Educational Standards for Non-agreement Employees


FINDING:

      Amtrak’s middle and senior managers (particularly in the operating
departments) lack the education levels normally found in similar organizations.


DISCUSSION:

        Graduates of four year colleges and universities generally possess knowledges,
skills and abilities that non-graduates have not attained, simply because they have not
been given in-depth exposure to broader knowledge and sophisticated concepts in a
formalized educational setting. When compared to non-graduates, these graduates
often possess a greater technical understanding of their field, better analytical skills, a
more rigorous decision making process, and better communication skills. These
attributes make them better equipped to manage and direct business organizations
and are valued by society, as reflected by the average salaries of high school and
college graduates. According to 2006 census data, 17 the average salary of a high
school graduate was $31,071 while those with bachelor’s degrees averaged $56,688,
or 82 percent more. Those with advanced degrees earned even more. This pay
differential reflects their greater value to the organizations that employ them. In a
figurative sense, they simply have more tools in their tool kit than their
contemporaries who lack this education. Because of this, most companies employ a
high percentage of college graduates for their management ranks.

        For example, the U.S. military utilizes a college degree as a standard for entry
level managers (officers). A recent study noted, “There are few exceptions to the
Service requirements that commissioned officers have at least a 4-year college
degree….” The study went on to note that in FY 2004, 92.1 percent of officer
accessions had a 4-year degree or higher, and for the service as a whole, only 4.2
percent of the entire officer corps were “less than a college graduate.”18 In the two
Class I freight railroads we benchmarked against, their non-agreement employees,
particularly at senior levels, generally possess educational levels that are comparable
with current U.S. military practices and both had programs for entry level
management which had a college degree as a prerequisite for entry.




17
  www.census.gov/compedia/sattat/tables.
18
  Office of the Under Secretary of Defense, Personnel and Readiness, “Population Representation in the Military
Services, 2004, < http://www.DefenseLink.mil/prhome/poprep2004/officers/education.html>.
.


                                                                                                             34
       As noted earlier in the finding on the management associate/trainee program,
one of these railroads has over 700 former trainees currently working at that
company, which accounts for a significant percentage (about 20 percent) of their non-
agreement employees. It should be noted that these are not the only college
graduates in that company, but – like academy graduates in the military – simply
those who have entered through a highly structured initial training process.
Collectively, these managers provide a cadre of technically qualified, knowledgeable
talent who are capable of additional development both by formal education and
career broadening assignments.

       By comparison, we found little evidence of similar educational standards for
management employees at Amtrak. Indeed, in some of the operating departments,
technically educated managers are rare. For example, the Amtrak field organization is
divided into geographic areas, or Divisions. Using data from Amtrak records, we
examined the senior Divisional field managers in the Transportation and Mechanical
Departments. Results are as shown.


Recorded Educational Levels: Amtrak General Superintendents, Master
Mechanics and Senior Field Line Managers
                                                    Technical Field
   Executive      Total        College Degree
                                                     Degree (B.S.)
  Grade Level    Number
                               No.        %         No.         %
E-1 (General
Superintendents,   12           1        8.3%        0          0%
Master Mechanics)

E-1/D-2/D-1           112           22         19.6%          4           3.6%



        Of the 12 General Superintendents and Master Mechanics who are collectively
responsible for the efficient and effective employment of 12,379 field employees and
subordinates, records indicate only one (8.3 percent) possesses a baccalaureate
degree, and that is not a Bachelor of Science. In fact, a more detailed review of the
senior field management (grades E-1, D-2 and D-1) of these two operating
departments determined that of the 112 top non-agreement employees, only 22 (19.6
percent) possessed a degree, and only four of these were technical (Bachelor of
Science) degrees. At lower management levels, the comparison is equally stark; in
one operating department, of the approximately 125 field level line managers who
collectively direct and supervise 3,000 employees, only seven (6 percent) possessed a
degree, and six of the seven were in non-technical fields. A comparison with the
senior leadership of a benchmarked Class I, as shown below, is also enlightening.




                                                                                   35
                             AMTRAK                            Class I Freight

                  Total        BA         BS         Total           BA            BS

  Ops:GS/MM      12 (100%)   1 (8%)                11 (100%)       3 (27%)       5 (45%)




        This situation has developed over many years, and will take many years to
correct. Studies have shown that most managers tend to promote people who are
like themselves. It is therefore understandable that this situation has evolved since,
until recently, the heads of the two largest operating departments and the two top
managers in the HR&DI Department did not have college degrees. If these
individuals had experienced first hand the value of a college degree, they may have
placed more emphasis on hiring managers with college educations.

       A college education is not the only tool in an individual manager’s tool kit;
there are some people whose natural leadership abilities substantially offset their lack
of a baccalaureate education, and many of them are in senior leadership positions at
Amtrak. On an individual basis, this is good, and arguably there should always be
positions for a very small percentage of individuals who are truly gifted in these areas.
However, on an aggregate basis, a senior leadership lacking formal technical and/or
business education is not an ideal situation for the successful operation of a complex,
21st Century transportation company.

RECOMMENDATIONS:

2E1. That the VP for HR&DI, in conjunction with the heads of each department,
ensure that appropriate educational standards are identified for all non-agreement
employees.

2E2. That the VP for HR&DI ensure that all new non-agreement hires or promotions
possess the minimum educational standard identified in the position description or
that a waiver has been granted by the President of Amtrak, or his designated
representative.

2E3. That the VP for HR&DI track and semiannually report progress toward achieving
the educational standards identified in the position descriptions.




                                                                                           36
2F. Cross-Departmental & Corporate Competencies

FINDING:

      Amtrak has few middle and senior managers that have experience in more
than one department, contributing to the creation and furtherance of “silos” within the
company.

DISCUSSION:

        A smoothly functioning organization is characterized in part by good internal
communications and cooperation among various elements of the organization. This in
turn is aided by a common understanding of the operation and functions of other
parts of the organization.

       In the 1990s, Amtrak employed Gallup to do an internal survey. One of their
findings was that, despite a high level of cooperation between department heads,
Amtrak suffered from extensive stove piping (a tendency of departments not to work
well with each other) below that level and poor internal coordination and cooperation.
Current information confirms this is still an issue, as a recent company-wide survey of
Amtrak employees - conducted by Accenture - found that Amtrak still has a “silo
mentality” 19 which pervades all departments and constitutes a significant barrier to
improvement.

      During our benchmarking, we looked to see how other organizations attempted
to combat this silo mentality. At one major Class I freight railroad we visited, there
was a clear understanding of the benefits of departmental cross pollination. For
example:

       •   Management trainees were identified as “corporate assets” and assigned to
           career paths that in many cases will eventually take them out of the initial
           hiring department.
       •   The company has nine salary bands, and managers that progress beyond Band
           5 are encouraged and given opportunities to take assignments in more than
           one department.
       •   Support department composition showed the results of deliberate internal
           rotation. According to the AVP of HR, of the 70 employees 20 in his department
           “50 to 70 percent” (35 to 50 employees) had come from the operating
           departments, and nearly half would return.
       •   Career paths of senior managers showed the results of this progression. For
           example, the current VP of HR was previously the VP of IT; a recently selected
19
     Accenture Strategic Asset Management Culture Value Analysis, Executive Summary, February 2009, p.5.
20
     All were non-agreement, or management, employees.


                                                                                                           37
          VP of Transportation started as a research engineer and was previously the
          General Manager for Mechanical Field Operations; and the current CEO (a
          former management trainee) was previously the VP of HR.

    In another Class I railroad (44,000 employees), they had similar management
career pathing. An interview with a former senior manager from that company noted
that at his former employer higher level management often crossed departments for
development and organizational enhancement. For example, the CEO was the COO
and prior to that spent much of his career in Marketing, although he started as a
management trainee and initial assignment was as a trainmaster. Other companies
also have cross functional experience in their senior leadership. We were told by a
former Coca-Cola manager that Coca-Cola uses a similar cross-departmental career
path procedure. As a final example, the U.S. military moves management officers
between and among commands for career broadening assignments, and, since the
advent of the Goldwater-Nichols Department of Defense Reorganization Act of 1986, 21
an officer cannot attain general officer rank without career broadening assignments
working with other branches of service.

        By comparison, Amtrak managers generally lack similar experiences outside of
their initial departmental assignment. For example, of the 5 current divisional Master
Mechanics, 0 have significant experience outside the Mechanical Department, and of
the 7 General Superintendents, only 2 of 7 possess significant experience outside the
Transportation Department. Even more telling is the comparison between Amtrak’s
HR managers and one of the Class I’s HR department’s managers. The Class I has
approximately 27 of 45 non-training HR managers (60 percent) with prior operating
department management experience, compared with 3 of 65 (4.6 percent) in Amtrak
HR who have had prior experience in a non-agreement position within an operating
department (see table below).

       Comparative Experience – HR Managers (Class I vs. Amtrak)
Functional head         Total subordinates (less Operating Dept
                        ED&T)                    Management Experience
Class I AVP, HR         45                       27
Amtrak AVP, HR          65                       3

Moreover, at the Class I, former HR managers have advanced and are now filling
positions as diverse as Director of Marketing, Assistant Division General
Superintendent, and General Manager of Mechanical Field Operations. Indeed, this
Class I has had a succession of internal managers who served in the HR department
and continued on to other departments where their experience could continue to be
broadened. In fact, in the past five years, 18 HR managers (about 25%) have
returned to positions in the operating departments. At Amtrak similar cross-

21
     Pubic Law 99-433


                                                                                       38
departmental career pathing is conspicuously absent. Although we did not do a
detailed analysis, we expect most of the Amtrak support departments are similar to
HR in this regard.

       The current Amtrak situation results from multiple causes, and there is no
single “silver bullet” solution which will resolve it in the very near term; indeed, a long
term solution will require effort in multiple areas over a period of years. Regardless
of the causes, the overall results are clear, well documented and disturbing: the
Accenture survey cited earlier rated Amtrak in the bottom 10 percent of over 400
companies surveyed in “supporting employee growth.” 22

       A graduate level text on human resource management discusses management
development programs, including rotational assignments, and summarizes by saying
that “The ultimate aim of such development programs is, of course, to enhance the
future performance (underlining supplied for emphasis) of the organization itself.” 23
At Amtrak, a continuation of present policies will result in a managerial workforce
whose ability to work across departmental lines is limited by their experience,
fostering continued stove piping and limiting corporate synergy and integration. In
view of the looming challenges facing the company, this would appear to be an
undesirable situation.



RECOMMENDATIONS:

2F1. That the VP for HR&DI develop and implement a plan to expand
cross-departmental experience within the middle and senior management of the
company.

2F2. That the VP for HR&DI track and report progress towards achieving this cross-
departmental experience on a semiannual basis, as a minimum.

2F3. That, in conjunction with the above, the VP for HR&DI develop and implement
procedures to preclude advancement into upper middle management without career
broadening, cross-departmental assignments.




22
     Accenture Strategic Asset Management Culture Value Analysis, Executive Summary, February 2009, p.15.
23
     Dressler, op.cit., p.173.


                                                                                                            39
2G. Leadership/Management Development

FINDING:

      Amtrak has no corporate-wide plan to insure that its supervisors and managers
have the appropriate leadership and management skills required to be successful.

DISCUSSION:

       Leadership and management skills are usually developed through a
combination of classroom instruction and developmental work experience. Seldom do
managers develop outstanding leadership and management skills solely through the
classroom or solely through work experience.

        Understanding Amtrak’s need for classroom instruction to support leadership
and management development, the HR&DI Department offers several instructor-led
courses and access to numerous computer-based courses. These courses are
described on the Amtrak intranet under the “Education and Training” section and then
under “Leadership/Management” 24 . The instructor-led offerings include a Basic
Management Course, a Mid-level Management Course and an Advanced Management
Course. The course descriptions provide a “recommended” range of time, in years, as
guidelines for when employees should complete each course. The Basic Management
course is recommended for those with 3 years or less of management experience, the
Mid-level Management Course is recommended for those with between 3 to 8 years of
management experience, and the Advanced Management Course is recommended for
those with 10 years or more of management experience. We were told that the Basic
Management Course has been successfully piloted, but the other courses are still in
the pilot stage. Surprisingly, we learned that, between January 2008 and May 2009,
only four classes total had been conducted in these three courses with a combined
total of only 65 students. In addition, the “Training Calendar: Leadership Courses” on
the Amtrak intranet does not show any classes scheduled to be conducted in 2009
and beyond. The current number of attendees is far short of the total
supervisor/manager population and is an indicator that what appears to be a well-
intended program has not been fully adopted by the corporation.

       We discovered several reasons why these courses have not been attended by
more students. First, our interviews suggest that the existence of these courses is not
well known. Second, some departments have developed their own supervisory
training, and are sending their supervisors to that training rather than the corporately
24
  Amtrak’s Internal Website, home page, under tab “How We Work,”or “Employees” and then tab “Education
and Training.”



                                                                                                         40
developed courses. Third, the courses are “offered” but not required by any
corporate policy or directive.

       All Amtrak supervisors could benefit from at least a certain amount of
classroom leadership training. Without a corporate policy that mandates certain
leadership training for all management employees, Amtrak will continue in its current
uneven approach. Without mandated classroom training, some new supervisors will
end up relying solely on what they have learned through their own observations of
past supervisors – who are not always the best examples.


RECOMMENDATION:

2G. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop and implement a policy containing corporate-wide direction and guidance on
leadership training and development for non-agreement employees.




                                                                                    41
Appendix I

OIG Employee Training and Development Evaluation Team

Deputy IG for Inspections and Evaluations:

     Calvin E. Evans

Team Members:

     Mark A. Meana
     John L. Mac Michael




                                                        42
Appendix II

Consolidated List of Recommendations


1A1. That the Vice President of HR&DI schedule all new employees for the New
Employee Orientation Workshop, or equivalent, as soon as possible after their hiring
date, preferably on the first day on the Amtrak payroll.

1A2. That the Vice President of HR&DI track and report on a quarterly basis the
number of new hires that have not attended the New Hire Orientation Workshop, or
equivalent, within 30 days of hire.

1B. That the VP for HR&DI lead an effort to identify, with input from each Amtrak
department, the initial job-specific training required for each position within Amtrak,
and track whether new hire employees start this training within the first 30 days of
employment.

1C. That the VP for HR&DI, working with the department heads, develop specific
guidance on who should attend each course offered and the frequency in which it is
required to meet the intended objective of the training.

1D1. That the Amtrak President issue a corporate-wide strategy for training and
employee development providing guidance to the corporation on the linkage of
training and employee development to the achievement of Amtrak’s strategic goals
and objectives.

1D2. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop consistent, corporate-wide policies and procedures to support the strategy.

1E. That the VP for HR&DI, in consultation with other departments, explore options
for improving the efficiency of its training, including but not limited to increased
centralization of some or all of Amtrak’s instructor led training (particularly new hire
training), and use of part-time contractor instructor employees to provide a surge
capacity, if needed.

1F1. That the VP for HR&DI continue to fully support the implementation of EIM so
that supervisors have the ability to easily view and manage their employee training
records.

1F2. That, once EIM is sufficiently implemented, the VP for HR&DI develop policies
and procedures to ensure that all training is being appropriately captured in HRIS, and
that duplicate records are not continuing to be maintained.



                                                                                           43
1G1. That the VP for HR&DI develop a policy that establishes the minimum
qualifications and certifications required to be an instructor for each course taught at
Amtrak.

1G2. That the VP for HR&DI develop a program to insure that all Amtrak instructors
achieve and remain in compliance with the above policy.

1H. That the VP for HR&DI, working with the Chief Information Officer, develop
procedures to ensure that individuals that are credited for taking required computer
based training programs are the same individuals that completed the courses.

1I. That the VP for HR&DI develop and publish a glossary of common training terms
and definitions to facilitate communication and common understanding throughout
the corporation concerning training and employee development topics.

2A1. That the Amtrak President, with the support and approval of the Board of
Directors, issue a corporate-wide strategy for developing management employees to
assume the future leadership roles within the company.

2A2. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop consistent, corporate-wide policies and procedures to support the
management career development strategy.

2B. That the VP for HR&DI develop and implement an appropriate management
assessment tool for all applicants for non-agreement employee positions.

2C1. That the VP for HR&DI review and revise the current Amtrak Management
Associate Program to fill an appropriate and effective role within the new
management career development strategy.

2C2. That the CFO identify funding within Amtrak’s corporate budget to meet the
needs of the revised Management Associate Program.

2D1. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop broad company-wide job families and career progression paths for all non-
agreement positions.

2D2. That Amtrak’s President designate either the VP for HR&DI or other Amtrak
senior leaders to oversee and manage these families and career paths.

2E1. That the VP for HR&DI, in conjunction with the heads of each department,
ensure that appropriate educational standards are identified for all non-agreement
employees.


                                                                                       44
2E2. That the VP for HR&DI ensure that all new non-agreement hires or promotions
possess the minimum educational standard identified in the position description or
that a waiver has been granted by the President of Amtrak, or his designated
representative.

2E3. That the VP for HR&DI track and semiannually report progress toward achieving
the educational standards identified in the position descriptions.

2F1. That the VP for HR&DI develop and implement a plan to expand
cross-departmental experience within the middle and senior management of the
company.

2F2. That the VP for HR&DI track and report progress towards achieving this cross-
departmental experience on a semiannual basis, as a minimum.

2F3. That, in conjunction with the above, the VP for HR&DI develop and implement
procedures to preclude advancement into upper middle management without career
broadening, cross-departmental assignments.

2G. That the VP for HR&DI, in consultation with Amtrak’s executive leadership,
develop and implement a policy containing corporate-wide direction and guidance on
leadership training and development for non-agreement employees.




                                                                                     45
Appendix III          New Hire Checklist



                                   INSTRUCTIONS
                                AGREEMENT NEW HIRES

Please complete the following underlined forms and bring them with you on your first
day of employment. Please review the remaining material.

1. Employee Information Form: If you have a degree, please provide a copy of your final
   transcript or diploma.

2. Employment Eligibility Verification Form (I-9): Complete Section 1 and review the
   instructions form. You MUST provide acceptable documents for identification. The
   law states that you must be sent home if you do not produce this identification
   within three days of your start date.

3. W-4 Form: Please complete the federal W-4 form and the state tax form. If the state form
   is not included, it will be provided to you on your first day of employment.

4. Authorization for Direct Deposit: Please complete and attach a voided check.

5. Standards of Excellence Booklet: Please tear out and sign page 11.

6. Amtrak Flash Pass Photo Application and Amtrak Identification Card Application: Please
   complete these forms and attach passport quality color photos no larger than 2 ½ x 2 ½
   inches for use in producing your Amtrak flash pass and identification card.

7. Ethical Conduct and Conflict of Interest policy, Certificate of Compliance and Clayton Anti-
   Trust Form: Please read the policy and complete both forms.

8. Credit Card Security Policy and Certificate of Compliance: Read the policy and complete
   the form.

9. Accurate Reporting of Injuries and Illnesses Policy: Please read the policy (paying special
   attention to Section 5.0) and complete the form.

10. Computer Usage and Security Policy:         Please read the policy and complete the
    acknowledgement form.

11. What You Should Know: Information on Amtrak’s policy on prescribed and over-the-
    counter medications. Please complete the top half of this form only if you are taking
    medications that will affect your job duties.

12. Designation of Beneficiary for Unpaid Compensation: Please complete this form.

13. Recruitment Source Survey: Please complete this form.




                                                                                            46
Please review the following material.

14. Amtrak Agreement Benefits Summary

15. Railroad Retirement and Survivor Benefits Booklet

16. Railroad Retirement Tax Withholdings and Limits Card

17. E-mail Etiquette

18. Employee Security Handbook

19. System Security Information
       • System Security Awareness Training: You are required to complete an online
          course. This can be accessed through the intranet.
       • Letter from Mr. Crosbie


 PLEASE BE SURE YOU HAVE COMPLETED AN AMTRAK APPLICATION
      FOR EMPLOYMENT AND AUTHORIZATION BACKGROUND
                      INVESTIGATION




                                                                                47
Appendix IV

     Matrix of New Hire Initial Craft Training Comparison Sample




                                                                   48
APPENDIX IV                                                                                                R-1Ea1
Mechanical       Dept   Sample -        Initial   Craft   Training     FY '07                              17-Mar-09

                        BEAR   BOS      CHI/BPKLAX        LOR    MIA   NYS/P    OAK/SJC PHL   SEA WAS Total

CLNR                           2                  1       1      1     1        2             1   2                    11

BLOOD BORNE                    N 1of2             X       N      N     X        X             X   N 1of2
BLUE SIG PRO                   X                  X       N      N     X        X             X   N
CAR WATERING                   X                  X       X      X     N        N 1of2        X   X
ENV AWARENESS                  X                  N       N      N     N        N 1of2        N   N
FALL PROT OSHA                 N                  X       N      N     N        N 1of2        X   N
FIRE EXT BASIC                 X                  X       N      N     N        X             X   N
HEARING CONS                   X                  X       N      N     N        N 1of2        N   N
HAZ COMM                       X                  X       N      N     X        X             X   X
LOCK/TAGOUT                    X                  N       N      N     X        N 1of2        X   N
PAX CAR CLNG                   X                  X       X      X     N        X             X   X
PPE                            X                  N       N      N     X        X             X   X
SYS SECUR AW                   X                  N       N      N     X        N             N   X
TERRORIST ACTY                                    N       N      N              N 1of2        N

IBEW                    1      1        1         1                    3        2        1        2                    11

BLOOD BORNE             N      N        X         X                    X        X        X        N
BLUE SIG PRO            X      X        X         X                    X        X        X        X
ENV AWARENESS           X      X        N         N                    N 2of3   N        N        N
FALL PROT OSHA          N      N        N         N                    N        N        ??       X
FIRE EXT BASIC          N      X        X         X                    N        X        X        X
HAZ COMM                X      X        N         X                    N        X        X        X
HEARING CONS            X      X        N         ?                    N        X        N        X
LOCK/TAG PRO            X      X        X         X                    X        X        X        X
PPE                     X      X        X         X                    X        N        X        ?
SYS SECUR AW            X      X        N         N                             X                 X
TERRORIST ACTY                          N         N                    X                 X
DIVERSITY TRNG                                                                           X
NEW EMP WKSHP                                                                            X
WRKPLACE VIO                                                                             X
                  BEAR   BOS   CHI/BPKLAX   LOR   MIA   NYS/P   OAK/SJC PHL   SEA WAS WIL
IAM                                   1                 1       1             2   1         6

BLOOD BORNE                          X                  X       X             X      X
BLUE SIG PRO                         X                  X       X             X      X
ENV AWARENESS                        N                  X       N             N      N
FALL PROT OSHA                       N                  N       N             X      X
FIRE EXT BASIC                       X                  N       X             X      X
HAZ COMM                             X                  X       X             X      X
HEARING CONS                         X                  N       X             X      X
LOCK/TAG PRO                         X                  X       X             X      X
PPE                                  X                  X       X             X      X
SYS SECUR AW                         N                          X             N      X
TERRORIST ACTY                       N                  X                     N
238 TRN BK TEST                                                               X 1of2


SWMIA             1            1                        1                           2       5

BLOOD BORNE       N            X                        X                           X
BLUE SIG PRO      X            X                        X                           X
ENV AWARENESS     X            N                        X                           N
FALL PROT OSHA    N            N                        N                           X
FIRE EXT BASIC    N            X                        N                           X
HAZ COMM          X            N                        X                           X
HEARING CONS      N            N                        N                           X
LOCK/TAG PRO      X            X                        X                           X
PPE               N            X                        X                           X
SYS SECUR AW      X            N                        X                           X
TERRORIST ACTY                 N
238 TRN BK TEST                                                                     X
                  BEAR   BOS   CHI/BPKLAX   LOR   MIA   NYS/P   OAK/SJC PHL   SEA WAS WIL
JCC                                                     1       1                 2          4

BLOOD BORNE                                             X       X                 X
BLUE SIG PRO                                            X       X                 X
ENV AWARENESS                                           X       N                 N
FALL PROT OSHA                                          N       N                 X
FIRE EXT BASIC                                          N       X                 X
HAZ COMM                                                X       X                 X
HEARING CONS                                            N       X                 X
LOCK/TAG PRO                                            X       X                 X
PPE                                                     X       X                 X
SYS SECUR AW                                                    N                 X
TERRORIST ACTY                                          X       N
238 TRN BK TEST


ARSA & MGT                     1                        1                                    2

BLOOD BORNE                                             X
BLUE SIG PRO                   X                        X
ENV AWARENESS                                           X
FALL PROT OSHA
FIRE EXT BASIC
HAZ COMM                       X
HEARING CONS
LOCK/TAG PRO                   X
PPE
SYS SECUR AW
TERRORIST ACTY                                          X
238 TRN BK TEST
                                                                                  Total 39       39
                                                                                  (of 167)
Engineering      Dept   Sample -   Initial   Craft   Training         FY '07

                        NYP        PHL               PROV       WAS

IBEW                                                 2                         2 PROV
                                                                                 PROV
BLOOD BORNE                                          N 1of2
BLUE SIG PRO                                         Y
ENV AWARENESS                                        N 1of2
FALL PROT OSHA                                       Y
FIRE EXT BASIC                                       Y
HAZ COMM                                             N 1of2
HEARING CONS                                         Y
JOB BRIEF                                            N 1of2
LEAD AWRNESS                                         N 1of2
LOCK/TAG PRO                                         Y
PPE                                                  Y
RWP (2)                                              1-1of2
SYS SECUR AW                                         N 1of2
TERRORIST ACTY
WTCHMN QUAL                                          N 1of2



                        NYP        PHL               PROV       WAS

BMWE                    2                                 1     1              4 NYP
                                                                                 PROV
BLOOD BORNE             X                            X          X                NYP
BLUE SIG PRO            X                            X          X                WAS
ENV AWARENESS
FALL PROT OSHA          X                            X          X
FIRE EXT BASIC          X                            X          X
HAZ COMM                X                            X          X
HEARING CONS            X                            X          X
JOB BRIEF
LEAD AWRNESS       X              X      X
LOCK/TAG PRO       X              X      X
NEW EMP WKSHP      N              X      N
PPE                X              X      X
RWP (2)            X              X      X
SYS SECUR AW
TERRORIST ACTY     X              X      X
WTCHMN QUAL        X



                   NYP   PHL      PROV   WAS

C&S - Phase 2            1                     1

BLOOD BORNE              Y
BLUE SIG PRO             Y
ENV AWARENESS            N - N1
FALL PROT OSHA           Y
FIRE EXT BASIC           Y
HAZ COMM                 Y
HEARING CONS             Y
JOB BRIEF
LEAD AWRNESS             Y
LOCK/TAG PRO             Y
PPE                      Y
RWP                      Y
SYS SECUR AW
TERRORIST ACTY           N - N1
WTCHMN QUAL

N1(NOTE) - COMPL
AFTER TRNG
Transportation     Dept   Sample -     Initial       Craft   Training         FY '07

                          LAX          LOR                   NYP        WAS
                          2            2                     1                                 5
OBS

BLOOD BORNE               Y            N                     N
ENVIR AWARNESS            Y            Y                     Y
FALL PROT:S,T&F           Y            N                     N
FIRE EXT BASIC            Y            N                     N
HAZ COMM                  Y            N                     N
HEARING CONS              Y            N                     N
JOB BRIEF
NEW HIRE - POSIT          Y            Y                     Y
PREP TRNG - INTL          Y            Y                     Y
PPE                       Y            N                     N
SANITATION:F/H            Y            Y                     Y
SYS SECUR AW              N            N                     N
TERRORIST ACTY            N 1of2       N                     N

                          WAS          OAK
Ticket Agents                      1             1                                             2

BLOOD BORNE               N            X
ENVIR AWARNESS            N            X
FALL PROT:S,T&F
FIRE EXT BASIC            N            X
HAZ COMM                  N            X
HEARING CONS              N            X
JOB BRIEF                 N
NEW HIRE TKT CLK          X            X
PREP TRNG - INTL
PPE                       N            X
SANITATION:F/H
SYS SECUR AW                                                                           Grand
TERRORIST ACTY            N            X                                               Total   55
